Case: 20-1508

Document: 20

Page: 1

Filed: 10/07/2020

NOTE: This order is nonprecedential.

fHniteto States! Court of sappeate
for tlje Jfetieral Circuit
LARRY GOLDEN,
Plaintiff-Appellant
v.
APPLE INC.,
Defendant-Appellee
AT&T INC., BIG O DODGE CHRYSLER JEEP RAM,
FCA US LLC, FAIRWAY FORD LINCOLN OF
GREENVILLE, FORD GLOBAL TECHNOLOGIES,
LLC, GENERAL MOTORS COMPANY, KEVIN
WHITAKER CHEVROLET, LG ELECTRONICS USA
INC, MOTOROLA SOLUTIONS, INC., PANASONIC
CORPORATION, QUALCOMM, INC., SAMSUNG
ELECTRONICS USA, SPRINT CORPORATION, TMOBILE USA, INC., VERIZON CORPORATE
SERVICES GROUP,
Defendants
2020-1508
Appeal from the United States District Court for the
District of South Carolina in No. 6:19-cv-02557-DCC,
Judge Donald C. Coggins Jr.
ON PETITION FOR REHEARING EN BANC

1

APPENDIX A

Case: 20-1508

Document: 20

Page: 2

Filed: 10/07/2020

GOLDEN v. APPLE INC.

2

Before PROST, Chief Judge, Newman, LOURIE, Linn*, Dyk,
Moore, O’Malley, Reyna, Taranto, Chen, Hughes, and
STOLL, Circuit Judges1.

Per Curiam.
ORDER
Appellant Larry Golden filed a petition for rehearing
en banc. The petition was first referred as a petition for
rehearing to the panel that heard the appeal, and thereaf­
ter the petition for rehearing en banc was referred to the
circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October 14,
2020.

For the Court
Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

October 7. 2020
Date

* Circuit Judge Linn participated only in the decision
on the petition for panel rehearing.
1 Circuit Judges O’Malley and Wallach did not partic­
ipate.

2

Case: 20-1508

Document: 16

Page: 1

Filed: 09/03/2020

NOTE: This disposition is nonprecedential.

®mtet> States Court of Sppeafe
for tlje jfeberal Circuit
LARRY GOLDEN,
Plaintiff-Appellant
v.
APPLE INC.,
Defendant-Appellee
AT&T INC., BIG O DODGE CHRYSLER JEEP RAM,
FCA US LLC, FAIRWAY FORD LINCOLN OF
GREENVILLE, FORD GLOBAL TECHNOLOGIES,
LLC, GENERAL MOTORS COMPANY, KEVIN .
WHITAKER CHEVROLET, LG ELECTRONICS USA
INC, MOTOROLA SOLUTIONS, INC., PANASONIC
CORPORATION, QUALCOMM, INC., SAMSUNG
ELECTRONICS USA, SPRINT CORPORATION, TMOBILE USA, INC., VERIZON CORPORATE
SERVICES GROUP,
Defendants
2020-1508
Appeal from the United States District Court for the
District of South Carolina in No. 6:19-cv-02557-DCC,
Judge Donald C. Coggins Jr.

3

APPENDIX B

Case: 20-1508

Document: 16

2

Page: 2

Filed: 09/03/2020

GOLDEN v. APPLE INC.

Decided.: September 3, 2020
Larry Golden, Greenville, SC, pro se.
John Franklin Morrow, Jr., Womble Bond Dickinson
(US) LLP, Winston-Salem, NC, for defendant-appellee.
Also represented by Ana FRIEDMAN.
Before PROST, Chief Judge, Linn and Taranto, Circuit
Judges.

Per Curiam.
Larry Golden, pro se plaintiff-appellant, sued fifteen
defendants in the District Court for the District of South
Carolina, alleging patent infringement by the defendants’
development and manufacturing of communicating, moni­
toring, detecting, and controlling (“CMDC”) devices. Mag­
istrate Judge Kevin F. McDonald issued an Order notifying
Golden that his complaint was subject to summary dismis­
sal for frivolousness. After Golden amended his complaint,
the Magistrate Judge recommended dismissal without
prejudice and without service of process because the case
was duplicative of parallel proceedings Golden brought
against the government in the Court of Federal Claims.
Golden objected to the Magistrate Judge’s Report and Rec­
ommendation, arguing that the present action was not du­
plicative but was instead a separate action against non­
governmental entities for patent infringement. The dis­
trict court reviewed the record and adopted the Magistrate
Judge’s recommendation. Golden appeals. For the reasons
that follow, we affirm.
The district court concluded that because the present
case and the earlier case against the government involved
the same patents, that was enough to find the action dupli­
cative. Golden argues on appeal that what the district

4

Case: 20-1508

Document: 16

Page: 3

Filed: 09/03/2020

3

GOLDEN v. APPLE INC.

court failed to appreciate is that while the earlier action
asserted unfair acts by the government, the present action
allegedly involves the infringing acts of third parties unre­
lated to any activities of the government. Even if Golden
is correct, however, in asserting that the present action is
not duplicative and therefore should not have been dis­
missed on that ground, we “may affirm a judgment of a dis­
trict court on any ground the law and the record will
support so long as that ground would not expand the relief
granted.” Glaxo Grp. Ltd. v. TorPharm, Inc., 153 F.3d
1366,1371 (Fed. Cir. 1998). Indeed, we may dismiss a case
for lack of jurisdiction where the complaint is “wholly in­
substantial and frivolous.” First Data Corp. v. Inselberg,
870 F.3d 1367, 1373 (Fed. Cir. 2017) (quoting Arbaugh v.
Y & H Corp., 546 U.S. 500, 513 n.10 (2006)).
Allegations of direct infringement are subject to the
pleading standards established by Bell Atlantic Corp. v.
Twombly, 550 U.S. 544 (2007), and Ashcroft v. Iqbal, 556
U.S. 662 (2009). Under this standard, a court must dismiss
a complaint if it fails to allege “enough facts to state a claim
to relief that is plausible on its face.” Twombly, 550 U.S.
at 570. This “facial plausibility” standard requires “more
than labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Id. at 555.
Rather, it requires the plaintiff to allege facts that add up
to “more than a sheer possibility that a defendant has acted
unlawfully.” Iqbal, 556 U.S. at 678; see Twombly, 550 U.S.
at 555 (“Factual allegations must be enough to raise a right
to relief above the speculative level.”). Although courts do
not require “heightened fact pleading of specifics,”
Twombly, 550 U.S. at 570, a plaintiff must allege “‘enough
fact[s] to raise a reasonable expectation that discovery will
reveal’ that the defendant is liable for the misconduct al­
leged.” In re Bill of Lading Transmission & Processing Sys.
Pat. Litig., 681 F.3d 1323, 1341 (Fed. Cir. 2012) (alteration
in original) (quoting Twombly, 550 U.S. at 556).

5

Case: 20-1508

Document: 16

Page: 4

Filed: 09/03/2020

GOLDEN v. APPLE INC.

4

Golden’s amended complaint here, like his initial com­
plaint, even if not duplicative of the earlier filed action
against the government, “contains only conclusory formu­
laic recitations of the elements of patent infringement as to
each defendant.” Magistrate Judge Initial Order at 5,
Golden v. Apple Inc., No. 6:19-cv-02557 (D.S.C. Oct. 1,
2019), EOF No. 12. Count I of Golden’s Amended Com­
plaint, for example, merely states that “at least one of the
defendants named in this complaint has infringed at least
independent claim 4 & 5 of the ’287 patent,” Complaint at
1f 156, Golden v. Apple Inc., No. 6:19-cv-02557 (D.S.C. Oct.
15, 2019), ECF No. 16-1, followed by generalized state­
ments of infringement by each defendant, id. at ft 157204, and similar broad infringement allegations for each of
Golden’s other patents, id. at f f 205-384. The complaint
itself offers only vague generalities and block quotes of
statutes, cases and treatises, but nowhere points us to any
nonfrivolous allegations of infringement of any claim by
any actual product made, used, or sold by any defendant.
The complaint also references “claim charts” for each
defendant and each patent. E.g., id., ECF No. 16-14. These
claim charts present a dizzying array of disorganized as­
sertions over several hundred pages, disingenuously using
the words of the claims to generally describe cryptically
identified structures. Although Golden appeals pro se and
is therefore entitled to a certain leeway in interpreting his
complaint, we agree with the magistrate judge’s conclusion
that “the plaintiffs vague and conclusory allegations fail to
state a claim for relief.” Magistrate Judge Initial Order at
5.
For these reasons, we affirm the district court’s dismis­
sal without prejudice and without service of process, not on
the basis of duplicity, but on the ground of frivolousness.
AFFIRMED

6

Case: 20-1508

Document: 16

Page: 5

Filed: 09/03/2020

5

GOLDEN v. APPLE INC.

Costs
No costs.

7

Case: 20-1508

Document: 1-1

Page: 1

Filed: 02/25/2020

P Of 25;

United States Court of Appeals
For The Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Peter R. Marksteiner
Clerk of Court

Clerk’s Office
202-275-8000

February 25, 2020
NOTICE OF DOCKETING

Federal Circuit Docket No.: 2020-1508
Federal Circuit Short Title: Golden v. Apple Inc.
Date of Docketing: February 25, 2020
Originating Tribunal: United States District Court for the District of South Carolina
Originating Case No.: 6:19-cv-02557-DCC
Appellant: Larry Golden

A notice of appeal has been filed and assigned the above Federal Circuit case number.
The court's official caption is included as an attachment to this notice. Unless otherwise
noted in the court's rules, the assigned docket number and official caption or short title
must be included on all documents filed with this Court. It is the responsibility of all
parties to review the Rules for critical due dates. The assigned deputy clerk is noted
below and all case questions should be directed to the Case Management Team at (202)
275-8055.
The following documents are due within 14 days of this notice:
•
•
•

•

Entry of Appearance. (Fed. Cir. R. 47.3.)
Certificate of Interest. (Fed. Cir. R. 47.4.)
Docketing Statement. Note: The Docketing Statement is due in 30 days if the
United States or its officer or agency is a party in the appeal. (Fed. Cir. R. 33.1 and
the Mediation Guidelines)
Statement Concerning Discrimination in MSPB cases. (Fed. Cir. R. 15(c).)

PARTY FILING AND CONTACT INFORMATION: Each counsel representing a party
must be a member of the court's bar and registered for the court's electronic filing

8

APPENDIX C

6:19-cv-02557-DCC

Date Filed 01/27/20

Entry Number 32

Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Larry Golden,

Case No. 6:19-cv-02557-DCC

)
)

Plaintiff,

)
)

v.

ORDER

)
)

Apple Inc., Samsung Electronics USA,
LG Electronics USA Inc.,
Qualcomm Inc., Motorola Solutions
Inc., Panasonic Corporation, AT&T
Inc., Verizon Corporate Services
Group, Sprint Corporation, T-Mobile
USA Inc., Ford Global Technologies
LLC, Fairway Ford Lincoln of
Greenville, General Motors Company,
Kevin Whitaker Chevrolet, FCA US
LLC, Big O Dodge Chrysler Jeep Ram,

)
)
)
)
)
)
)
)

)
)

)
)

Defendant.

)

Plaintiff, proceeding pro se,1 brings this action alleging claims for patent
infringement against Defendants. ECF No. 16. In accordance with 28 U.S.C. § 636(b)
and Local Civil Rule 73.02(B)(2) (D.S.C.), this matter was referred to United States
Magistrate Judge Kevin F. McDonald for pre-trial proceedings and a Report and
Recommendation (“Report”). On January 9, 2019, the Magistrate Judge issued a Report
recommending that this action be dismissed without prejudice and without issuance of
service of process. ECF No. 27. Plaintiff filed objections to the Report. ECF No. 30.

1

Plaintiff paid the filing fee. ECF No. 1.

33

APPENDIX D

6:19-cv-02557-DCC

Date Filed 01/27/20

Entry Number 32

Page 2 of 6

LEGAL STANDARD
The Magistrate Judge makes only a recommendation to this Court.

The

recommendation has no presumptive weight, and the responsibility to make a final
determination remains with the Court. See Mathews v. Weber, 423 U.S. 261 (1976). The
Court is charged with making a de novo determination of any portion of the Report of the
Magistrate Judge to which a specific objection is made. The Court may accept, reject, or
modify, in whole or in part, the recommendation made by the Magistrate Judge or
recommit the matter to the Magistrate Judge with instructions. See 28 U.S.C. § 636(b).
The Court will review the Report only for clear error in the absence of an objection. See
Diamond v. Colonial Life & Accident Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005) (stating
that “in the absence of timely filed objection, a district court need not conduct a de novo
review, but instead must only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation.” (citation omitted)).
ANALYSIS
The Magistrate Judge recommends dismissal of the present action as duplicative
of another ongoing action in the Court of Federal Claims.2

Plaintiff makes various

objections, which the Court will address in turn.

2 As noted by the Magistrate Judge, Plaintiff is engaged in ongoing patent litigation
in the Court of Federal Claims, the Court of Appeals for the Federal Circuit, and the United
States Patent and Trademark Office. See Golden v. United States, ClA No. 1:19-cv0104-EGB (Fed. Cl.), appeal pending CIA No. 19-2134 (Fed. Cir.); Golden v. United
States, ClA No 1:13-cv-00307-SGB, stayed pending patent review, doc. 186 (Fed. Cl.)
(“Case
Number
1”);
In
re
Patent
Number
RE
43,990,
https://portal.uspto.goV/pair/PublicPair# (choose patent number, enter RE43990, and
then click Image File Wrapper) (last visited January 22, 2020). The Court may take
2

34

6:19-cv-02557-DCC

Date Filed 01/27/20

Entry Number 32

Page 3 of 6

The Magistrate Judge provides a thorough recitation of the facts and procedural
history which the Court incorporates by reference.3

Briefly summarizing the relevant

facts, Plaintiff sues various corporations and business entities that he asserts have
infringed on his patents, including: 10,163,287 ; 9,589,439; 9,096,189; RE43,990
RE43.891; and 7,385,497. ECF Nos. 16; 16-1; 16-3; 16-4; 16-5; 16-6; 16-7; 16-8. These
patents are entitled “multi sensor detection and lock disabling system” and “multi sensor
detection, stall to stop and lock disabling system.” ECF Nos. 16; 16-1; 16-3; 16-4; 16-5;
16-6; 16-7; 16-8. The patents appear to involve technology that can be used to detect
explosives/radiation and then disable vehicles or other apparatuses wherein the
explosives/radiation are detected. Plaintiff seeks a declaratory judgment that Defendants
have infringed on his patents, a permanent injunction enjoining the infringing activity by
Defendants, and money damages. ECF No. 16-1 at 252.
Upon de novo review of the record, the applicable law, and the Report, the Court
finds that this action should be dismissed as duplicative of Plaintiff’s Case Number 1.
That action involves the same patents and the alleged infringement is substantially
identical.

judicial notice of these other cases. See Phillips v. Pitt Cty. Mem. Hosp., 572 F.3d 176,
180 (4th Cir. 2009) (courts “may properly take judicial notice of matters of public record.”);
Colonial Penn Ins. Co. v. Coil, 887 F.2d 1236, 1239 (4th Cir. 1989) (“We note that ‘[tjhe
most frequent use of judicial notice ... is in noticing the content of court records.’”).
3 The Court notes that Plaintiff’s Amended Complaint is more than 250 pages in
length and includes more than 700 pages of attachments. ECF No. 16.
3

35

6:19-cv-02557-DCC

Date Filed 01/27/20

Entry Number 32

Page 4 of 6

Plaintiff contends that the purported infringement is not substantially identical. He
states that he “is bringing this action because the Plaintiffs communication devices (does
not include the communication devices use as ‘detection devices’ as claimed in Case
Number 1) and stall, stop and vehicle slowdown systems (does not include the stopping
of vehicles with the use of electromagnetic pulse as claimed in Case Number 1) are being
manufactured, sold, used, and offered for sale by the alleged infringers as new and
improved desktop computers, new and improved PDAs, PCs, laptops, cell phones,
tablets, smartphones and smartwatches, and new and improved stall, stop, and vehicle
slowdown systems etc.” ECF No. 30 at 6.
In Plaintiff’s Final Amended Complaint in Case Number 1, he asserts that the
Government has infringed upon his patents related to communications devices. C/A No.
1:13-cv-00307-EGB (ECF No. 120 at 14-16). Moreover, Case Number 1 and the present
action involve the same patents, as evidenced by Plaintiff’s pleadings and claims charts. 4
Accordingly, this objection is overruled.
Plaintiff further objects to the dismissal of his case because he claims that he is
barred from bringing a patent infringement case against a private party and the
Government in the same court. This objection has no basis in the law and is overruled.5

4 Plaintiff contends that this litigation does not involve the same patents as Case
Number 1. He has provided no support this argument and the evidence presented by
Plaintiff contradicts this assertion.
5 To the extent Plaintiff argues that the Defendants in the present action are
immune from suit in the Court of Federal Claims, has not pointed to, and the Court has
been unable to find, any authority to support a theory that these Defendants would be
treated differently in this Court.

4

36

6:19-cv-02557-DCC

Date Filed 01/27/20

Entry Number 32

Page 5 of 6

Plaintiff argues in his objections that the Defendants in the present action are not
the same as the Defendant in Case Number 1. As noted by the Magistrate Judge, this
action involves third parties as infringers rather than the Government; however, the filings
make clear that the Defendants are third-party actors for the Government’s alleged
infringing actions.

Accordingly, the Court finds this action should be dismissed as

duplicative because Plaintiff is alleging that the Defendants are infringing on the same
patents in the same manner as asserted in Case Number 1. See Nexsen Pruet, LLC v.
Westport Ins. Corp., C/A No. 3:10-cv-00895-JFA, 2010 WL 3169378, at *2 (D.S.C. Aug.
5, 2010) (generally, a case pending in federal court “may be dismissed for reasons of
wise judicial administration whenever it is duplicative of a parallel action already pending
in another federal court” (internal quotation marks omitted) (quoting Motley Rice, LLC v.
Baldwin & Baldwin, LLP, 518 F. Supp. 2d 688, 697 (D.S.C. 2007))); New Beckley Mining
Corp. v. Int’l Union, United Mine Workers of Am., 946 F.2d 1072, 1073 (4th Cir. 1991)
(suits are considered parallel if “substantially the same parties litigate substantially the
same issues in different forums” (citing LaDuke v. Burlington N. R.R., 879 F.2d 1556,
1559 (7th Cir. 1989))); Byerson v. Equifax Info. Sen/s., LLC, 467 F. Supp. 2d 627, 635
(E.D. Va. 2006) (noting that “[mjost prominent among the elements of systemic integrity
are judicial economy and the avoidance of inconsistent judgments.”).

5

37

6:19-cv-02557-DCC

Date Filed 01/27/20

Entry Number 32

Page 6 of 6

CONCLUSION
In light of the foregoing, this action is DISMISSED6 without prejudice7 and without
issuance of service of process.
IT IS SO ORDERED.
s/ Donald C. Coggins, Jr.
United States District Judge
January 27, 2020
Spartanburg, South Carolina

NOTICE OF RIGHT TO APPEAL
The parties are hereby notified of the right to appeal this order pursuant to Rules 3 and 4
of the Federal Rules of Appellate Procedure.

6 The Court finds Plaintiff should not be given a second opportunity to amend his
complaint in the instant matter because any amendment would be futile in light of the
pending duplicative litigation. See Goode v. Cent. Virginia Legal Aid Soc’y, Inc., 807 F.3d
619, 623 (4th Cir. 2015); see also In re PEC Solutions, Inc. Sec. Litig., 418 F. 3d 379, 391
(4th Cir. 2005) (“Leave to amend need not be given when amendment would be futile.”).
7 In his objections, Plaintiff states that his claims will time barred if he is not allowed
to proceed in this action. He has provided no support for this conclusory statement.
6

38

6:19-cv-02557-DCC
Case: 20-1508

Date Filed 01/27/20 Entry Number 32 Page 1 of 6
Document: 1-2 Page: 17 Filed: 02/25/2020

(20 of 2b i
%

sal*

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Larry Golden,

)

A TRUE COPY
ATTEST: ROBIN L. BLUME, Cl

)
)

v.

§

SfsourSS^

Case No. 6:19-cv-02557-DCC

)

Plaintiff,

i

{l<

Bf:

ORDER

)

DEffUTY/CLERK

)

Apple Inc., Samsung Electronics USA,
LG Electronics USA Inc.,
Qualcomm Inc., Motorola Solutions
Inc., Panasonic Corporation, AT&T
Inc., Verizon Corporate Services
Group, Sprint Corporation, T-Mobile
USA Inc., Ford Global Technologies
LLC, Fairway Ford Lincoln of
Greenville, General Motors Company,
Kevin Whitaker Chevrolet, FCA US
LLC, Big O Dodge Chrysler Jeep Ram,

)
)
)
)
)
)
)
)

)
)

)
)

Defendant.

)

Plaintiff, proceeding pro se,1 brings this action alleging claims for patent
infringement against Defendants. ECF No. 16. In accordance with 28 U.S.C. § 636(b)
and Local Civil Rule 73.02(B)(2) (D.S.C.), this matter was referred to United States
Magistrate Judge Kevin F. McDonald for pre-trial proceedings and a Report and
Recommendation (“Report”). On January 9, 2019, the Magistrate Judge issued a Report
recommending that this action be dismissed without prejudice and without issuance of
service of process. ECF No. 27. Plaintiff filed objections to the Report. ECF No. 30.

1

Plaintiff paid the filing fee. ECF No. 1.

27

6:19-cv-02557-DCC
Case: 20-1508

Date Filed 01/27/20 Entry Number 32
Page 2 of 6
Document: 1-2
Page: 18
Filed: 02/25/2020

(21 of 25)

LEGAL STANDARD
The Magistrate Judge makes only a recommendation to this Court.

The

recommendation has no presumptive weight, and the responsibility to make a final
determination remains with the Court. See Mathews v. Weber, 423 U.S. 261 (1976). The
Court is charged with making a de novo determination of any portion of the Report of the
Magistrate Judge to which a specific objection is made. The Court may accept, reject, or
modify, in whole or in part, the recommendation made by the Magistrate Judge or
recommit the matter to the Magistrate Judge with instructions. See 28 U.S.C. § 636(b).
The Court will review the Report only for clear error in the absence of an objection. See
Diamond v. Colonial Life & Accident Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005) (stating
that “in the absence of timely filed objection, a district court need not conduct a de novo
review, but instead must only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation.” (citation omitted)).
ANALYSIS
The Magistrate Judge recommends dismissal of the present action as duplicative
of another ongoing action in the Court of Federal Claims.2

Plaintiff makes various

objections, which the Court will address in turn.

2 As noted by the Magistrate Judge, Plaintiff is engaged in ongoing patent litigation
in the Court of Federal Claims, the Court of Appeals for the Federal Circuit, and the United
States Patent and Trademark Office. See Golden v. United States, ClA No. 1:19-cv0104-EGB (Fed. Cl.), appeal pending C/A No. 19-2134 (Fed. Cir.); Golden v. United
States, C/A No 1:13-cv-00307-SGB, stayed pending patent review, doc. 186 (Fed. Cl.)
(“Case
Number
re
Patent
Number
1”);
In
RE
43,990,
https://portal.uspto.g0v/pair/PublicPair# (choose patent number, enter RE43990, and
then click Image File Wrapper) (last visited January 22, 2020). The Court may take
2

28

6:19-cv-02557-DCC
Case: 20-1508

Date Filed 01/27/20 Entry Number 32
Page 3 of 6
Document: 1-2
Page: 19
Filed: 02/25/2020

The Magistrate Judge provides a thorough recitation of the facts and procedural
history which the Court incorporates by reference.3

Briefly summarizing the relevant

facts, Plaintiff sues various corporations and business entities that he asserts have
infringed on his patents, including: 10,163,287 ; 9,589,439; 9,096,189; RE43.990
RE43.891; and 7,385,497. ECF Nos. 16; 16-1; 16-3; 16-4; 16-5; 16-6; 16-7; 16-8. These
patents are entitled “multi sensor detection and lock disabling system” and “multi sensor
detection, stall to stop and lock disabling system.” ECF Nos. 16; 16-1; 16-3; 16-4; 16-5;
16-6; 16-7; 16-8. The patents appear to involve technology that can be used to detect
explosives/radiation and then disable vehicles or other apparatuses wherein the
explosives/radiation are detected. Plaintiff seeks a declaratory judgment that Defendants
have infringed on his patents, a permanent injunction enjoining the infringing activity by
Defendants, and money damages. ECF No. 16-1 at 252.
Upon de novo review of the record, the applicable law, and the Report, the Court
finds that this action should be dismissed as duplicative of Plaintiff’s Case Number 1.
That action involves the same patents and the alleged infringement is substantially
identical.

judicial notice of these other cases. See Phillips v. Pitt Cty. Mem. Hosp., 572 F.3d 176,
180 (4th Cir. 2009) (courts “may properly take judicial notice of matters of public record.”);
Colonial Penn Ins. Co. v. Coil, 887 F.2d 1236, 1239 (4th Cir. 1989) (“We note that ‘[t]he
most frequent use of judicial notice ... is in noticing the content of court records.’”).
3 The Court notes that Plaintiff’s Amended Complaint is more than 250 pages in
length and includes more than 700 pages of attachments. ECF No. 16.
3

29

yic1 :>51

6:19-cv-02557-DCC
Case: 20-1508

Date Filed 01/27/20 Entry Number 32
Page 4 of 6
Document: 1-2
Page: 20
Filed: 02/25/2020

Plaintiff contends that the purported infringement is not substantially identical. He
states that he “is bringing this action because the Plaintiffs communication devices (does
not include the communication devices use as ‘detection devices’ as claimed in Case
Number 1) and stall, stop and vehicle slowdown systems (does not include the stopping
of vehicles with the use of electromagnetic pulse as claimed in Case Number 1) are being
manufactured, sold, used, and offered for sale by the alleged infringers as new and
improved desktop computers, new and improved PDAs, PCs, laptops, cell phones,
tablets, smartphones and smartwatches, and new and improved stall, stop, and vehicle
slowdown systems etc.” ECF No. 30 at 6.
In Plaintiff’s Final Amended Complaint in Case Number 1, he asserts that the
Government has infringed upon his patents related to communications devices. C/A No.
1:13-cv-00307-EGB (ECF No. 120 at 14-16). Moreover, Case Number 1 and the present
action involve the same patents, as evidenced by Plaintiff’s pleadings and claims charts.4
Accordingly, this objection is overruled.
Plaintiff further objects to the dismissal of his case because he claims that he is
barred from bringing a patent infringement case against a private party and the
Government in the same court. This objection has no basis in the law and is overruled.5

4 Plaintiff contends that this litigation does not involve the same patents as Case
Number 1. He has provided no support this argument and the evidence presented by
Plaintiff contradicts this assertion.
5 To the extent Plaintiff argues that the Defendants in the present action are
immune from suit in the Court of Federal Claims, has not pointed to, and the Court has
been unable to find, any authority to support a theory that these Defendants would be
treated differently in this Court.

4

30

(23 G( 25}

6:19-cv-02557-DCC
Case: 20-1508

Date Filed 01/27/20 Entry Number 32
Page 5 of 6
Document: 1-2
Page: 21
Filed: 02/25/2020

Plaintiff argues in his objections that the Defendants in the present action are not
the same as the Defendant in Case Number 1. As noted by the Magistrate Judge, this
action involves third parties as infringers rather than the Government; however, the filings
make clear that the Defendants are third-party actors for the Government’s alleged
infringing actions.

Accordingly, the Court finds this action should be dismissed as

duplicative because Plaintiff is alleging that the Defendants are infringing on the same
patents in the same manner as asserted in Case Number 1. See Nexsen Pruet, LLC v.
Westport Ins. Corp., C/A No. 3:10-cv-00895-JFA, 2010 WL 3169378, at *2 (D.S.C. Aug.
5, 2010) (generally, a case pending in federal court “may be dismissed for reasons of
wise judicial administration whenever it is duplicative of a parallel action already pending
in another federal court” (internal quotation marks omitted) (quoting Motley Rice, LLC v.
Baldwin & Baldwin, LLP, 518 F. Supp. 2d 688, 697 (D.S.C. 2007))); New Beckley Mining
Corp. v. Int’l Union, United Mine Workers of Am., 946 F.2d 1072, 1073 (4th Cir. 1991)
(suits are considered parallel if “substantially the same parties litigate substantially the
same issues in different forums” (citing LaDuke v. Burlington N. R.R., 879 F.2d 1556
1559 (7th Cir. 1989))); Byerson v. Equifax Info. Servs., LLC, 467 F. Supp. 2d 627, 635
(E.D. Va. 2006) (noting that “[mjost prominent among the elements of systemic integrity
are judicial economy and the avoidance of inconsistent judgments.”).

5

31

6:19-cv-02557-DCC
Case: 20-1508

Date Filed 01/27/20 Entry Number 32
Page 6 of 6
Document: 1-2
Page: 22
Filed: 02/25/2020

CONCLUSION
In light of the foregoing, this action is DISMISSED6 without prejudice7 and without
issuance of service of process.
IT IS SO ORDERED.
si Donald C. Coggins, Jr.
United States District Judge
January 27, 2020
Spartanburg, South Carolina

NOTICE OF RIGHT TO APPEAL
The parties are hereby notified of the right to appeal this order pursuant to Rules 3 and 4
of the Federal Rules of Appellate Procedure.

6 The Court finds Plaintiff should not be given a second opportunity to amend his
complaint in the instant matter because any amendment would be futile in light of the
pending duplicative litigation. See Goode v. Cent. Virginia Legal Aid Soc’y, Inc., 807 F.3d
619, 623 (4th Cir. 2015); see also In re PEC Solutions, Inc. Sec. Litig., 418 F. 3d 379, 391
(4th Cir. 2005) (“Leave to amend need not be given when amendment would be futile.”).
7 In his objections, Plaintiff states that his claims will time barred if he is not allowed
to proceed in this action. He has provided no support for this conclusory statement.
6

32

(25 of 25)

6:19-cv-02557-DCC Date Filed 01/31/20 Entry Number 35-1 Page 1 of 6
6:19-cv-02557-DCC Date Filed 01/27/20 Entry Number 32 Page! of 6
m
tv

sf>

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Larry Golden,

Case No. 6:19-cv-02557-DCC

)
)

Plaintiff,

)
)

o
CM
o
CNJ
LO
CNJ
CM
O
“D

iZ
CNJ
0)
O)
CO

CL
CNI

v.

)
)

Apple Inc., Samsung Electronics USA,
LG Electronics USA Inc.,
Qualcomm Inc., Motorola Solutions
Inc., Panasonic Corporation, AT&T
Inc., Verizon Corporate Services
Group, Sprint Corporation, T-Mobile
USA Inc., Ford Global Technologies
LLC, Fairway Ford Lincoln of
Greenville, General Motors Company,
Kevin Whitaker Chevrolet, FCA US
LLC, Big O Dodge Chrysler Jeep Ram,

)

ORDER

)
)
)
)
)
)
)

)
)

)
)

■i-i

Defendant.

c

CD

)

E

3
O
O

Q

Plaintiff, proceeding pro se,1 brings this action alleging claims for patent

oo
o
m

infringement against Defendants. ECF No. 16. In accordance with 28 U.S.C. § 636(b)

o

and Local Civil Rule 73.02(B)(2) (D.S.C.), this matter was referred to United States

CNJ

CD

co

CO

Magistrate Judge Kevin F. McDonald for pre-trial proceedings and a Report and

O

Recommendation ("Report”). On January 9, 2019, the Magistrate Judge issued a Report
recommending that this action be dismissed without prejudice and without issuance of
service of process. ECF No. 27. Plaintiff filed objections to the Report. ECF No. 30.

1

Plaintiff paid the filing fee. ECF No. 1.

12

6:19-cv-02557-DCC

Date Filed 01/31/20

Entry Number 35

Page 1 of 1

FORM 1. Notice of Appeal to the United States Court of Appeals for the Federal Circuit from a
Judgment or Order of a UNITED STATES DISTRICT COURT

United States District Court

Form 1
Rev. 03/16

-if.
i)

for the

10: tfQ

District of South Carolina

Larry Golden

Plaintiff,

o

CM
O
CM

in

v.

CM
CM

Case No. 6:19-cv-2557-DCC

o
T3

il

Apple, Inc. et al

Defendant.

Q)

cn
co
Q.

NOTICE OF APPEAL

CM

Notice is hereby given that Larry Golden
E (name all parties * taking the appeal) in the above named case hereby appeal to the United States
13
c

CD

O

o Court of Appeals for the Federal Circuit fmm the final judgement______________________

Q

oo

(from the final judgment) ((from an order) (describe the order)) entered in this action on January 27,2020

O

in

o
CM

a)
in

iignai

CO

O

►f appellant or attorney)

Larry Golden
740 Woodruff Road, #1102
Greenville.SC 29607

!

atpg-tech@charter.net
i

(Address of appellant or attorney and e-mail address)
|

Reset Fields

j|

*See Fed. R. App. P. 3(c) for permissible ways of identifying appellants.

11

6:19-cv-02557-DCC
Date Filed 01/31/20
6:19-cv-02557-DCC
Date Filed 01/27/20

Entry Number 35-1
Page 2 of 6
Page 2 of 6
Entry Number 32

CM

*—
o

LEGAL STANDARD
the Magistrate Judge makes only a recommendation to this Court.

The

recommendation has no presumptive weight, and the responsibility to make a final
determination remains with the Court. See Mathews v. Weber, 423 U.S. 261 (1976). The
Court is charged with making a de novo determination of any portion of the Report of the
o
CN
o

CN
LO
CN
CN

o

T3

il
CO

a)

Magistrate Judge to which a specific objection is made. The Court may accept, reject, or
modify, in whole or in part, the recommendation made by the Magistrate Judge or
recommit the matter to the Magistrate Judge with instructions. See 28 U.S.C. § 636(b).
The Court will review the Report only for clear error in the absence of an objection. See
Diamond v. Colonial Life & Accident ins. Co., 416 F.3d 310, 315 (4th Cir. 2005) (stating

CD

ro

CL
CN
i.;
C
0)

E
o
o

that “in the absence of timely filed objection, a district court need not conduct a de novo
review, but instead must only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation.” (citation omitted)).
ANALYSIS

O
OO

The Magistrate Judge recommends dismissal of the present action as duplicative

o

in

o

of another ongoing action in the Court of Federal Claims.2

Plaintiff makes various

CN

CD

w
ro
O

objections, which the Court will address in turn.

2 As noted by the Magistrate Judge, Plaintiff is engaged in ongoing patent litigation
in the Court of Federal Claims, the Court of Appeals for the Federal Circuit, and the United
States Patent and Trademark Office. See Golden v. United States, C/A No. 1:19-cv0104-EGB (Fed. CL), appeal pending CIA No. 19-2134 (Fed. Cir.); Golden v. United
States, C/A No 1:13-cv-00307-SGB, stayed pending patent review, doc. 186 (Fed. Cl.)
RE
43,990,
Patent
Number
re
Number
1”);
In
(“Case
https://portal.uspto.g0v/pair/PublicPair# (choose patent number, enter RE43990, and
then click image File Wrapper) (last visited January 22, 2020). The Court may take

2

13

6:19-cv-02557-DCC Date Filed 01/31/20
6:19-cv-02557-DCC Date Filed 01/27/20

Entry Number 35-1 Page 3 of 6
Entry Number 32 Page 3 of 6

'■Si

"\i

""o

The Magistrate Judge provides a thorough recitation of the facts and procedural
history which the Court incorporates by reference.3

Briefly summarizing the relevant

facts, Plaintiff sues various corporations and business entities that he asserts have
infringed on his patents, including: 10,163,287 ; 9,589,439; 9,096,189; RE43,990
RE43.891; and 7,385,497. ECF Nos. 16; 16-1; 16-3; 16-4; 16-5; 16-6; 16-7; 16-8. These
o
CM
o

patents are entitled "multi sensor detection and lock disabling system'1 and “multi sensor

in

detection, stall to stop and lock disabling system." ECF Nos. 16; 16-1; 16-3; 16-4; 16-5;

CN
CN
CN

o
T3

il
CD
02
03
OL
CN

C
02

E

3
O

o

Q
00

16-6; 16-7; 16-8. The patents appear to involve technology that can be used to detect
explosives/radiation and then disable vehicles or other apparatuses wherein the
explosives/radiation are detected. Plaintiff seeks a declaratory judgment that Defendants
have infringed on his patents, a permanent injunction enjoining the infringing activity by
Defendants, and money damages. ECF No. 16-1 at 252.
Upon de novo review of the record, the applicable law, and the Report, the Court
finds that this action should be dismissed as duplicative of Plaintiffs Case Number 1.
That action involves the same patents and the alleged infringement is substantially

o
o

identical.

CN

ai
w
O

judicial notice of these other cases. See Phillips v. Pitt Cty. Mem. Hosp., 572 F.3d 176,
180 (4th Cir. 2009) (courts “may properly take judicial notice of matters of public record.”);
Colonial Penn Ins. Co. v. Coil, 887 F.2d 1236, 1239 (4th Cir. 1989) (“We note that '[t]he
most frequent use of judicial notice ... is in noticing the content of court records.’”).
3 The Court notes that Plaintiffs Amended Complaint is more than 250 pages in
length and includes more than 700 pages of attachments. ECF No. 16.
3

14

6:19-cv-02557-DCC
Date Filed 01/31/20
6:19-cv-02557-DCC
Date Filed 01/27/20

Entry Number 35-1
Page 4 of 6
Entry Number 32
Page 4 of 6

o
OC

Plaintiff contends that the purported infringement is not substantially identical. He
states that he “is bringing this action because the Plaintiffs communication devices (does
not include the communication devices use as ‘detection devices’ as claimed in Case
Number 1) and stall, stop and vehicle slowdown systems (does not include the stopping
of vehicles with the use of electromagnetic pulse as claimed in Case Number 1) are being
o
CM
o

manufactured, sold, used, and offered for sale by the alleged infringers as new and

in

improved desktop computers, new and improved PDAs, PCs, laptops, cell phones,

CM
CM
CM

o

TJ

il
LO
<1)
O)
CD

tablets, smartphones and smartwatches, and new and improved stall, stop, and vehicle
slowdown systems etc.” ECF No. 30 at 6.
In Plaintiffs Final Amended Complaint in Case Number 1, he asserts that the

Q.

Government has infringed upon his patents related to communications devices. C/A No.

CM

1:13-cv-00307-EGB (ECF No. 120 at 14-16). Moreover, Case Number 1 and the present

4-;

c

CD

E

action involve the same patents, as evidenced by Plaintiffs pleadings and claims charts.4

Z3

o

o

Q

Accordingly, this objection is overruled.
Plaintiff further objects to the dismissal of his case because he claims that he is

00

o

in

barred from bringing a patent infringement case against a private party and the

o
CM
CD
D
CD

Government in the same court. This objection has no basis in the law and is overruled.5

o

:

i

4 Plaintiff contends that this litigation does not involve the same patents as Case
Number 1. He has provided no support this argument and the evidence presented by
Plaintiff contradicts this assertion.
5 To the extent Plaintiff argues that the Defendants in the present action are
immune from suit in the Court of Federal Claims, has not pointed to, and the Court has
been unable to find, any authority to support a theory that these Defendants would be
treated differently in this Court.

4

15

6:19-cv-02557-DCC
Date Filed 01/31/20 Entry Number 35-1
Page 5 of 6
6:19-cv-02557-DCC
Date Filed 01/27/20 Entry Number 32
Page 5 of 6
c.

Plaintiff argues in his objections that the Defendants in the present action are not
the same as the Defendant in Case Number 1. As noted by the Magistrate Judge, this
action involves third parties as infringers rather than the Government; however, the filings
make clear that the Defendants are third-party actors for the Government’s alleged
infringing.actions.
o
CM
o

Accordingly, the Court finds this action should be dismissed as

duplicative because Plaintiff is alleging that the Defendants are infringing on the same

CM
CM

patents in the same manner as asserted in Case Number 1. See Nexsen Pruet, LLC v.

CM

o

■o

il
CD
CD
O)
CD

Westport Ins. Corp., C/A No. 3:10-cv-00895-JFA, 2010 WL 3169378, at *2 (D.S.C. Aug.
5, 2010) (generally, a case pending in federal court "may be dismissed for reasons of
wise judicial administration whenever it is duplicative of a parallel action already pending

o.

in another federal court" (internal quotation marks omitted) (quoting Motley Rice, LLC v.

CM

Baldwin & Baldwin, LLP, 518 F. Supp. 2d 688, 697 (D.S.C. 2007))); New Beckley Mining

i

4-1
C

CD

E

3
O

o
o

00

o
m
i

o

Corp. v. Int’l Union, United Mine Workers of Am., 946 F.2d 1072, 1073 (4th Cir. 1991)
(suits are considered parallel if "substantially the same parties litigate substantially the
same issues in different forums” (citing LaDuke v. Burlington N. R.R., 879 F.2d 1556,
1559 (7th Cir. 1989))); Byerson v. Equifax info. Servs., LLC, 467 F. Supp. 2d 627, 635

CM

CD

(E.D. Va. 2006) (noting that “[mjost prominent among the elements of systemic integrity

C/5

CD

O

are judicial economy and the avoidance of inconsistent judgments.”).

5

16

6:19-cv-02557-DCC Date Filed 01/31/20 Entry Number 35-1 Page 6 of 6
6:19-cv-02557-DCC Date Filed 01/27/20 Entry Number 32 Page 6 of 6

i

CONCLUSION
In light of the foregoing, this action is DISMISSED6 without prejudice7 and without
issuance of service of process.
IT IS SO ORDERED.

o
c\i
o
CN
LO
CN
CN
O

si Donald C. Coggins, Jr.
United States District Judge
January 27, 2020
Spartanburg, South Carolina

NOTICE OF RIGHT TO APPEAL

■o

il
0
O)

The parties are hereby notified of the right to appeal this order pursuant to Rules 3 and 4
of the Federal Rules of Appellate Procedure.

ro

CL

CN
I

C

CD

E
o
o

Q

00

o

lO
I

o
CN

0
V)
CD

O

6

The Court finds Plaintiff should not be given a second opportunity to amend his
complaint in the instant matter because any amendment would be futile in light of the
pending duplicative litigation. See Goode v. Cent. Virginia Legal Aid Soc’y, inc., 807 F.3d
619, 623 (4th Cir. 2015); see also In re PEC Solutions, Inc. Sec. Litig., 418 F. 3d 379, 391
(4th Cir. 2005) (“Leave to amend need not be given when amendment would be futile.").
7 In his objections, Plaintiff states that his claims will time barred if he is not allowed
to proceed in this action. He has provided no support for this conclusory statement.
6

17

6:19-cv-02557-DCC Date Filed 01/31/20 Entry Number 35-2 Page 1 of 1
6:19-cv-02557-DCC Date Filed 01/27/20 Entry Number 33 Page 1 of 1
AO 450 (SCD 04/2010) Judgment in a Civil Action

United States District Court
for the
District of South Carolina

Larry Golden
Plaintiff

O
CM

o
CM

m

CM
CM

o
T3

v.
Apple Inc., Samsung Electronics USA, LG
Electronics USA Inc., Qualcomm Inc., Motorola
Solutions Inc., Panasonic Corporation, AT&T Inc.,
Verizon Corporate Services Group, Sprint
Corporation, T-Mobile USA Inc., Ford Global
Technologies LLC, Fairway Ford Lincoln of
Greenville, General Motiors Company, Kevin
Whitaker Chevrolet, FCA US LLC, Big O Dodge
_________ Chrysler Jeep Ram___________ ____

Civil Action No.

6:19-cv-2557-DCC

)
)
)
)
)

Defendant

il
JUDGMENT IN A CIVIL ACTION
co

The court has ordered that (check one):

<u
02
ro
0.

■ other: this action is dismissed without prejudice and without issuance of service of process.

CM

This action was (check one)'.

c

CD

E

■ decided by the Honorable Donald C. Coggins, Jr.

13
O

o
o

Date: January 27,2020

CLERK OF COURT

oo
o
in

s/Angela Lewis, Deputy Clerk
Signature ofClerk or Deputy Clerk

O
CM

CD

C/3

ro

o

18

6:19-cv-02557-DCC

Date Filed 10/01/19

Entry Number 12

Page 1 of 7

IN THE DISTRICT COURT OF THE UNITED STATES
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Larry Golden,

C/A No. 6:19-2557-DCC-KFM

)
)
Plaintiff,
)
)
vs.
)
)
Apple Inc., Samsung Electronics USA, )
LG Electronics USA Inc., Qualcomm
)
Inc., Motorola Solutions Inc., Panasonic )
Corporation, AT&T Inc., Verizon
)
Corporate Services Group, Sprint
)
Corporation, T-Mobile USA Inc., Ford
)
Global Technologies LLC,
)
Fairway Ford Lincoln of Greenville,
)
General Motors Company, Kevin
)
Whitaker Chevrolet, FCA US LLC, Big )
O Dodge Chrysler Jeep Ram,
)
)
Defendants.
)

ORDER

The plaintiff, a non-prisoner proceeding pro se, brings this action asserting
patent infringement against the defendants (doc. 1). Pursuant to the provisions of 28
U.S.C. § 636(b), and Local Civil Rule 73.02(B)(2) (D.S.C.), this magistrate judge is
authorized to review all pretrial matters in this case and submit findings and
recommendations to the district court.
The plaintiff’s complaint was entered on the docket on September 11,2019
(doc. 1). The case is in proper form for judicial screening. Nevertheless, as presented, the
plaintiff’s complaint is subject to summary dismissal.
BACKGROUND
In the instant action, the plaintiff has sued various corporations and business
entities that he asserts have infringed on his patents (doc. 1). Specifically, the plaintiff
asserts that the defendants have infringed on the following patents: 10,163,287 (‘287

63

APPENDIX G

6:19-cv-02557-DCC

Date Filed 10/01/19

Entry Number 12

Page 2 of 7

patent); 9,589,439 (‘439 patent); 9,096,189 (‘189 patent); RE43,990 (‘990 patent)1;
RE43,891 (‘891 patent); and 7,385,497 ('497 patent) (docs. 1; 1-3; 1-4; 1-5; 1-6; 1-7; 1-8).
These patents are entitled “multi sensor detection and lock disabling system” and “multi
sensor detection, stall to stop and lock disabling system” (docs. 1; 1-3; 1-4; 1-5; 1-6; 1-7;

1-8).

The patents appear to involve technology that can be used to detect

explosives/radiation and then disable vehicles or other apparatuses wherein the
explosives/radiation are detected. The plaintiff’s complaint, consisting of 157 pages (in
addition to the court’s standard form) alleges infringement of each patent by each
defendant in formulaic recitations of the elements of patent infringement (docs. 1; 1-1). For
relief, the plaintiff seeks a declaratory judgment that the defendants have infringed on his
patents, a permanent injunction enjoining the infringing activity by the defendants, as well
as money damages (doc. 1-1 at 156-57).
STANDARD OF REVIEW
As a pro se litigant, the plaintiffs pleadings are accorded liberal construction
and held to a less stringent standard than formal pleadings drafted by attorneys. See
Erickson v. Pardus, 551 U.S. 89 (2007) (per curiam).

The requirement of liberal

construction does not mean that the Court can ignore a clear failure in the pleading to
allege facts which set forth a claim cognizable in a federal district court. See Weller v. Dep’t
ofSoc. Sen/s., 901 F.2d 387, 391 (4th Cir. 1990).
“The Federal Rules of Civil Procedure recognize that courts must have the
authority to control litigation before them.” Ballard v. Carlson, 882 F.2d 93, 95 (4th Cir.
1989) (citing Fed. R. Civ. P. 41(b)).

Federal courts are courts of limited jurisdiction,

“constrained to exercise only the authority conferred by Article III of the Constitution and
1 The plaintiffs authority to enforce the ‘990 patent appears to be at issue already
in light of the petition pending before the United States Patent and Trademark Office. In
re Patent Number RE 43,990, https://p0rtal.uspt0.g0v/pair/PublicPair# (choose patent
number, enter RE43990, and then click Image File Wrapper) (last visited September 27,
2019).
2

64

6:19-cv-02557-DCC

Date Filed 10/01/19

Entry Number 12

Page 3 of 7

affirmatively granted by federal statute.” In re Bulldog Trucking, Inc., 147 F.3d 347, 352
(4th Cir. 1998). Since federal courts have limited subject matter jurisdiction, there is no
presumption that the court has jurisdiction. Pinkley, Inc. v. City of Frederick, 191 F.3d 394,
399 (4th Cir. 1999) (citing Lehigh Mining & Mfg. Co. v. Kelly, 160 U.S. 337 (1895)).
Accordingly, a federal court is required, sua sponte, to determine if a valid basis for its
jurisdiction exists, “and to dismiss the action if no such ground appears.” Bulldog Trucking,
147 F.3d at 352; see also Fed. R. Civ. P. 12(h)(3) (“If the court determines at any time that
it lacks subject-matter jurisdiction, the court must dismiss the action.”).
DISCUSSION
As an initial matter, the court takes judicial notice of the plaintiffs currently
pending patent litigation in the Court of Federal Claims, the Court of Appeals for the Federal
Circuit, and before the United States Patent and Trademark Office.2 See Golden v. United
States, CIA No. 1:19-cv-00104-EGB (Fed. Cl.), appeal pending ClA No. 19-2134 (Fed. Cir.);
Golden v. United States, ClA No 1:13-cv-00307-SGB, stayed pending patent review, doc.
186 (Fed. Cl.); In re Patent Number RE 43,990, https://p0rtal.uspt0.g0v/pair/PublicPair#
(choose patent number, enter RE43990, and then click Image File Wrapper) (last visited
September 27, 2019). For the reasons that follow, as presented, the instant matter is
subject to summary dismissal because the claims appear patently frivolous.3
Failure to State a Claim
Under established local procedure in this judicial district, a careful review has
been made of the pro se pleadings. This court possesses the inherent authority to review
2 Phillips v. Pitt Cty. Mem. Hosp., 572 F.3d 176, 180 (4th Cir. 2009) (courts “may
properly take judicial notice of matters of public record.”); Colonial Penn Ins. Co. v. Coil, 887
F.2a 1236, 1239 (4th Cir. 1989) (“We note that ‘[tjhe most frequent use of judicial
notice . .. is in noticing the content of court records.’”).
3 It is also unclear whether the instant action is barred or precluded in part by the
action currently pending in the Federal Circuit Court of Claims. Though the alleged
infringers herein are separate entities, it appears that the same patents and possibly the
same infringing actions are at issue in both cases.
3

65

6:19-cv-02557-DCC

Date Filed 10/01/19

Entry Number 12

Page 4 of 7

the pro se complaint to ensure that subject matter jurisdiction exists and that a case is not
frivolous, even if the pleading is not subject to the pre-screening provisions of 28 U.S.C.
§ 1915.4 See Mallard v. U.S. Dist. Court, 490 U.S. 296, 307-08 (1989) (“Section
1915(d)... authorizes courts to dismiss a 'frivolous or malicious’ action, but there is little
doubt they would have power to do so even in the absence of this statutory provision.”);
Ross v. Baron, 493 F. App’x405, 406 (4th Cir. 2012) (unpublished) (finding that “frivolous
complaints are subject to dismissal pursuant to the inherent authority of the court, even
when the filing fee has been paid ... [and] because a court lacks subject matter jurisdiction
over an obviously frivolous complaint, dismissal prior to service of process is permitted.”
(citations omitted)); see also Fitzgerald v. First E. Seventh St. Tenants Corp., 221 F.3d 362,
364 (2d Cir. 2000) (finding that “district courts may dismiss a frivolous complaint sua sponte
even when the plaintiff has paid the required filing fee”). Accordingly, “[t]he present
Complaint is subject to review pursuant to the inherent authority of this Court to ensure that
subject matter jurisdiction exists and that the case is not frivolous.” Trawick v. Med. Univ.
of S.C., C/A No. 2:16-730-DCN-MGB, 2016 WL 8650132, at *4 (D.S.C. June 28, 2016),
Report and Recommendation adopted by 2016 WL 8650131 (D.S.C. July 7, 2016), aff’d
671 F. App’x 85 (4th Cir. 2016) (mem).
In reviewing a complaint for frivolousness or malice, the Court looks to see
whether the Complaint raises an indisputably meritless legal theory or is founded upon
clearly baseless factual contentions, such as fantastic or delusional scenarios. Harley v.
United States, 349 F. Supp. 2d 980, 981 (M.D.N.C. 2004) (citing Neitzke v. Williams, 490
U.S. 319 (1989)).5 Moreover, as recognized by the Federal Circuit Court of Appeals, federal

4 The plaintiff paid the full filing fee; thus, this case is not subject to the pre­
screening provisions of 28 U.S.C. § 1915.
5 On December 2,2015, the pleading standard for some patent infringement claims
changed, i.e. claims filed on or after December 1,2015, are governed by the Iqbal/Twombly
plausibility standard. Artrip v. Ball Corp., 735 F. App’x 708 (Fed. Cir. 2018).
4

66

6:19-cv-02557-DCC

Date Filed 10/01/19

Entry Number 12

Page 5 of 7

patent jurisdiction “cannot lie based on allegations that are frivolous or insubstantial.” First
Data Corp. v. Inselberg, 870 F.3d 1367, 1373 (Fed. Cir. 2017) (internal citation and
emphasis omitted).
Here, the plaintiffs vague and conclusory allegations fail to state a claim for
relief. Indeed, the complaint contains no factual allegations beyond the identities of the
defendants—the alleged infringers—and contains only conclusory formulaic recitations of
the elements of patent infringement as to each defendant (as to each patent). Further,
correspondence from the plaintiff, cited by the United States Court of Federal Claims,
indicates that the instant action may be violative of Federal Rule of Civil Procedure 11
because it has been filed in order to:
force Apple, Samsung, and LG to decide between one or two
choices: (1) In an effort to avoid any responsibility for
infringement or liability of paying hundreds of billions of dollars
in damages, the companies cho[o]se to throw the Government
under the bus by presenting evidence that they were under
contract to develop and manufacture devices that infringes my
communication/monitoring device. If they cho[o]se this option
it makes them a witness for me in my current case (Larry
Golden v. The United States', Case # 13-307 C). (2) Deny the
allegations of infringement. In this case I will present evidence
to support the fact that the companies were under contract with
the Government to develop and manufacture devices that
infringe[ ] my communication / monitoring device, but that the
companies decided to continue to develop and manufacture my
communication / monitoring device beyond the specifications
agreed upon with the Government, even after I notified the
companies in 2010 to stop their manufacturing . If they chos[o]e
this option it opens the companies up to willful infringement and
the possibility of a temporary injunction to stop the
manufacturing and development of my communication /
monitoring device. If you were Apple, Samsung, and LG which
option would you cho[o]se?
Golden v. United States, 137 Fed. Cl. 155,168 (alterations in original). Accordingly, in light
of the vague conclusory allegations in the complaint, and in light of this correspondence by
the plaintiff in the Court of Federal Claims, as presented, the Court lacks jurisdiction over
the instant matter because it is frivolous. See Huang v. Huawei Technologies, Co., 735 F.
App’x 715, 722 (Fed. Cir. 2018) (noting that the plaintiff engaged in frivolous lawsuit where

5

67

6:19-cv-02557-DCC

Date Filed 10/01/19

Entry Number 12

Page 6 of 7

there was no evidence of pre-suit investigation, but there was evidence that the plaintiffs
“intent from the outset of the litigation was to force Huawei to incur legal fees in hopes that
it would quickly settle”); see also Fitzgerald, 221 F.3d at 364 (providing for dismissal of
frivolous actions sua sponte even when a plaintiff pays the filing fee).
Improper Joinder
The undersigned further notes that the instant matter, as presented, is also
subject to summary dismissal based upon improper joinder. Joinder in patent infringement
cases is governed by 35 U.S.C. § 299, which allows joinder of infringement claims only
when:
(1) any right to relief is asserted against the parties jointly,
severally, or in the alternative with respect to or arising out of
the same transaction, occurrence, or series of transactions or
occurrences relating to the making, using, importing in the
Untied States, offering for sale, or selling of the same accused
product or process; and
(2) questions of fact common to all defendants or counterclaim
defendants will arise in the action
28 U.S.C. § 299(b). Further, the statute specifically notes that “accused infringers may not
be joined in one action as defendants or counterclaim defendants, or have their actions
consolidated for trial, based solely on allegations that they each have infringed the patent
or patents in suit.” 28 U.S.C. § 299(b). While this provision is waiveable, the undersigned
finds that the complex disparities between the alleged infringing products, technology, and
manufacturing make joinder of all the defendants herein improper. For example, although
the alleged infringed patents cover technology used in various devices, the undersigned
finds no questions of fact common to the construction of an iPhone in comparison to the
construction of a Samsung phone. Moreover, the technology and manufacturing of a phone
carries no common questions of fact with retailers of vehicles, such as Big O Dodge or
wireless service providers such as Verizon. Indeed, the plaintiff has not plausibly alleged
factual allegations evincing a concerted effort amongst these defendants in infringing on

6

68

6:19-cv-02557-DCC

Date Filed 10/01/19

Entry Number 12

Page 7 of 7

his patents. As such, in its current state, the instant matter is also subject to summary
dismissal based upon improper joinder.
NOTICE CONCERNING AMENDMENT
Accordingly, based upon the foregoing, the plaintiffs complaint is subject to
dismissal because, as presented, it is frivolous and fails to state a claim upon which relief
may be granted. The plaintiff may attempt to correct the defects in his complaint identified
above by filing an amended complaint within 14 days of this order, along with any
appropriate service documents. The plaintiff is reminded that an amended complaint
replaces the original complaint and should be complete in itself. See Young v. City of
Mount Ranier, 238 F.3d 567, 572 (4th Cir. 2001) (“As a general rule, an amended pleading
ordinarily supersedes the original and renders it of no legal effect.” (citation and internal
quotation marks omitted)); see also 6 Charles Alan Wright et al., Federal Practice and
Procedure § 1476 (3d ed. 2017) (“A pleading that has been amended under Rule 15(a)
supersedes the pleading it modifies and remains in effect throughout the action unless it
subsequently is modified. Once an amended pleading is interposed, the original pleading
no longer performs any function in the case ..(footnotes omitted)). If the plaintiff files an
amended complaint, the undersigned will conduct screening of the amended complaint
pursuant to 28 U.S.C. §§1915,1915A. If the plaintiff fails to file an amended complaint or
fails to cure the deficiencies identified above, the undersigned will recommend to the district
court that the claims be dismissed with prejudice and without leave for further amendment.

s/Kevin F. McDonald
United States Magistrate Judge
October 1, 2019
Greenville, South Carolina

7

69

6:19-cv-02557-DCC

Date Filed 10/15/19

Entry Number 16-1

UNITED STATES DISTRICT COU&¥

Page 1 of 253

clerkCgre!hville. si

FOR THE
2019 OCT 15 AH 10:49
DISTRICT OF SOUTH CAROLINA - GREENVILLE
^

LARRY GOLDEN,
Plaintiff,
V.
(1) APPLE INC.
(2) SAMSUNG ELECTRONICS, USA
(3) LG ELECTRONICS, USA, INC.
(4) QUALCOMM INC.
(5) MOTOROLA SOLUTIONS INC.
(6) PANASONIC CORPORATION
(7) AT&T INC.
(8) VERIZON CORPORATE SERVICES
GROUP
(9) SPRINT CORPORATION
(10) T-MOBILE USA, INC.
(11) FORD GLOBAL TECHNOLOGIES,
LLC
(12) FAIRWAY FORD LINCOLN OF
GREENVILLE
(13) GENERAL MOTORS COMPANY
(14) KEVIN WHITAKER CHEVROLET
(15) FCA US LLC
(16) BIG O DODGE CHRYSLER JEEP
RAM

CASE NO: 6:19-cv-2557-DCC-KFM
JURY TRIAL DEMANDED
October 14, 2019

Defendants.

COMPLAINT FOR PATENT INFRINGEMENT
This is an action of patent infringement in which plaintiff, Larry Golden
(“Golden”), complains against defendants, Apple Inc. (“Apple”), Samsung
Electronics, USA (“Samsung”), LG Electronics, USA, Inc. (“LG”), Qualcomm

APPENDIX H
70

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 1 of 8

IN THE DISTRICT COURT OF THE UNITED STATES
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Larry Golden,
Plaintiff,
vs.
Apple Inc., Samsung Electronics USA,
LG Electronics USA Inc., Qualcomm
Inc., Motorola Solutions Inc., Panasonic
Corporation, AT&T Inc., Verizon
Corporate Services Group, Sprint
Corporation, T-Mobile USA Inc., Ford
Global Technologies LLC,
Fairway Ford Lincoln of Greenville,
General Motors Company, Kevin
Whitaker Chevrolet, FCA US LLC, Big
O Dodge Chrysler Jeep Ram,
Defendants.

C/A No. 6:19-cv-02557-DCC-KFM

)
)
)
)
)
)
)

REPORT OF MAGISTRATE JUDGE

)
)

)
)
)

)
)
)
)

)
)
)

)

The plaintiff, a non-prisoner proceeding pro se, brings this action asserting
patent infringement against the defendants.

Pursuant to the provisions of 28 U.S.C.

§ 636(b), and Local Civil Rule 73.02(B)(2) (D.S.C.), this magistrate judge is authorized to
review all pretrial matters in this case and submit findings and recommendations to the
district court.
The plaintiffs complaint was entered on the docket on September 11,2019
(doc. 1). By order filed October 1,2019, the plaintiff was informed that his complaint was
subject to summary dismissal because it failed to state a claim upon which relief may be
granted, and that he could attempt to cure the defects identified in his complaint by filing
an amended complaint within fourteen days (doc. 12). The plaintiff was informed that if he
failed to file an amended complaint or otherwise cure the deficiencies outlined in the order,
the undersigned would recommend that his case be dismissed (id. at 7). On October 15,

55

APPENDIX F

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 2 of 8

2019, the plaintiffs amended complaint was entered on the docket (doc. 16). However, the
undersigned recommends dismissal of the case because the amended complaint makes
clear that the instant action is duplicative of pending litigation in the Court of Federal
Claims.
FACTS PRESENTED
In the instant action, the plaintiff has sued various corporations and business
entities that he asserts have infringed on his patents (docs. 16; 16-1). Specifically, the
plaintiff asserts that the defendants have infringed on the following patents: 10,163,287
('287 patent); 9,589,439 (‘439 patent); 9,096,189 (‘189 patent); RE43,990 ('990 patent)1;
RE43,891 (‘891 patent); and 7,385,497 (‘497 patent) (docs. 16; 16-1; 16-3; 16-4; 16-5; 166; 16-7; 16-8). These patents are entitled “multi sensor detection and lock disabling
system” and “multi sensor detection, stall to stop and lock disabling system” (docs. 16; 16-1;
16-3; 16-4; 16-5; 16-6; 16-7; 16-8). The patents appear to involve technology that can be
used to detect explosives/radiation and then disable vehicles or other apparatuses wherein
the explosives/radiation are detected. The plaintiff’s complaint, consisting of 253 pages (in
addition to the court’s standard form) alleges infringement of each patent by each
defendant in formulaic recitations of the elements of patent infringement (docs. 16; 16-1).
Attached to the complaint in addition to the amended complaint and patents are more than
seven hundred pages of exhibits and claim charts (docs. 16-9; 16-10; 16-11; 16-12; 16-13;
16-14; 16-15; 16-16; 16-17; 16-18; 16-19; 16-20; 16-21; 16-22; 16-23; 16-24; 16-25; 16-26;
16-27). For relief, the plaintiff seeks a declaratory judgment that the defendants have
infringed on his patents, a permanent injunction enjoining the infringing activity by the
defendants, as well as money damages (doc. 16-1 at 252).

1 The plaintiff’s authority to enforce the ‘990 patent appears to be at issue already
in light of the petition pending before the United States Patent and Trademark Office. In
re Patent Number RE 43,990, httpsV/portal.uspto.gov/pair/PublicPair# (choose patent
number, enter RE43990, and then click Image File Wrapper) (last visited January 8,2020).
2

56

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 3 of 8

STANDARD OF REVIEW
As a pro se litigant, the plaintiffs pleadings are accorded liberal construction
and held to a less stringent standard than formal pleadings drafted by attorneys. See
Erickson v. Pardus, 551 U.S. 89 (2007) (per curiam).

The requirement of liberal

construction does not mean that the Court can ignore a clear failure in the pleading to
allege facts which set forth a claim cognizable in a federal district court. See Weller v. Dep’t
ofSoc. Servs., 901 F.2d 387, 391 (4th Cir. 1990).
“The Federal Rules of Civil Procedure recognize that courts must have the
authority to control litigation before them.” Ballard v. Carlson, 882 F.2d 93, 95 (4th Cir.
1989) (citing Fed. R. Civ. P. 41(b)).

Federal courts are courts of limited jurisdiction,

“constrained to exercise only the authority conferred by Article III of the Constitution and
affirmatively granted by federal statute.” In re Bulldog Trucking, Inc., 147 F.3d 347, 352
(4th Cir. 1998). Since federal courts have limited subject matter jurisdiction, there is no
presumption that the court has jurisdiction. Pinkley, Inc. v. City of Frederick, 191 F.3d 394,
399 (4th Cir. 1999) (citing Lehigh Mining & Mfg. Co. v. Kelly, 160 U.S. 337 (1895)).
Accordingly, a federal court is required, sua sponte, to determine if a valid basis for its
jurisdiction exists, “and to dismiss the action if no such ground appears.” Bulldog Trucking,
147 F.3d at 352; see also Fed. R. Civ. P. 12(h)(3) (“If the court determines at anytime that
it lacks subject-matter jurisdiction, the court must dismiss the action.”).
DISCUSSION
As an initial matter, the court takes judicial notice of the plaintiffs currently
pending patent litigation in the Court of Federal Claims, the Court of Appeals for the Federal
Circuit, and before the United States Patent and Trademark Office.2 See Golden v. United

2 Phillips v. Pitt Cty. Mem. Hosp., 572 F.3d 176, 180 (4th Cir. 2009) (courts “may
properly take judicial notice of matters of public record.”) ; Colonial Penn Ins. Co. v. Coil, 887
F.2d 1236, 1239 (4th Cir. 1989) (“We note that Ttjhe most frequent use of judicial
notice ... is in noticing the content of court records.’”).
3

57

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 4 of 8

States, C/A No. 1:19-cv-OOI 04-EGB (Fed. Cl.), appeal pending C/A No. 19-2134 (Fed. Cir.)
(“Case Number 1”); Golden v. United States, C/A No 1:13-cv-00307-SGB, stayed pending
patent

review,

doc.

186

(Fed.

Cl.);

In

re

Patent

Number

RE

43,990,

https://portal.uspto.g0v/pair/PublicPair# (choose patent number, enter RE43990, and then
click Image File Wrapper) (last visited September 27, 2019). For the reasons that follow,
as presented, the instant matter is subject to summary dismissal because as evidenced in
the plaintiffs amended complaint (and exhibits), the instant action is duplicative of the
action pending in the Court of Federal Claims.
Efficient judicial administration generally requires the federal courts to avoid
duplicative federal litigation. See Colo. River Water Conservation Dist. v. United States,
424 U.S. 800, 817 (1976). Generally, a case pending in federal court “may be dismissed
for reasons of wise judicial administration whenever it is duplicative of a parallel action
already pending in another federal court.” Nexsen Pruet, LLC v. Westport Ins. Corp., C/A
No. 3:10-cv-00895-JFA, 2010 WL 3169378, at *2 (D.S.C. Aug. 5, 2010) (internal quotation
marks omitted) (quoting Motley Rice, LLC v. Baldwin & Baldwin, LLP, 518 F. Supp. 2d 688,
697 (D.S.C. 2007)). Suits are considered parallel if “substantially the same parties litigate
substantially the same issues in different forums.” New Beckley Mining Corp. v. Int’l Union,
United Mine Workers of Am., 946 F.2d 1072, 1073 (4th Cir. 1991) (citing LaDuke v.
Burlington N. R.R., 879 F.2d 1556, 1559 (7th Cir. 1989)). In Case Number 1, extensive
discovery and briefing on dismissal orders has occurred. See Golden v. United States, C/A
No 1:13-cv-00307-SGB. Additionally, although currently stayed while the plaintiff re-opens
the ‘990 patent, it appears that the claims construction process has begun. Id. at doc. 186.
As outlined above, here, the defendants’ alleged patent infringement is substantially
identical to that asserted in Case Number 1, with the exception that the instant matter
involves third parties as infringers instead of the government.

Indeed, the claims

construction charts provided by the plaintiff appear to be identical to those presented in
4

58

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 5 of 8

Case Number 1. Compare Golden v. United States, C/A No 1:13-cv-00307-SGB at doc.
121 with docs. 16-14; 16-15; 16-16; 16-17; 16-18; 16-19; 16-20; 16-21; 16-22; 16-23; 1624; 16-25; 16-26; 16-27). Indeed, although the instant matter involves different defendants
than Case Number 1, the plaintiffs filings make clear that they are third party actors for the
government’s infringing actions, which is the basis for Case Number 1. For example,
correspondence from the plaintiff (included in an order entered in Case Number 1) indicates
that Case Number 1 and the instant matter involve the same infringing actions, indicating
that the plaintiff would file a separate action in order to
force Apple, Samsung, and LG to decide between one or two
choices: (1) In an effort to avoid any responsibility for
infringement or liability of paying hundreds of billions of dollars
in damages, the companies cho[o]se to throw the Government
under the bus by presenting evidence that they were under
contract to develop and manufacture devices that infringes my
communication/monitoring device. If they cho[o]se this option
it makes them a witness for me in my current case (Larry
Golden v. The United States; Case # 13-307 C). (2) Deny the
allegations of infringement. In this case I will present evidence
to support the fact that the companies were under contract with
the Government to develop and manufacture devices that
infringe[ ] my communication / monitoring device, but that the
companies decided to continue to develop and manufacture my
communication / monitoring device beyond the specifications
agreed upon with the Government, even after I notified the
companies in 2010 to stop their manufacturing. If they cho[o]se
this option it opens the companies up to willful infringement and
the possibility of a temporary injunction to stop the
manufacturing and development of my communication /
monitoring device. If you were Apple, Samsung, and LG which
option would you cho[o]se?
Golden v. United States, 137 Fed. Cl. 155,168 (alterations in original). As such, the instant
action is duplicative of Case Number 1: the plaintiff asserts that the defendants are
infringing on the same patents in the same manner as asserted in Case Number 1. As
such, the interests of justice weigh heavily in favor of dismissing this action in light of Case
Number 1, which remains pending in the Court of Federal Claims (although it is currently
stayed pending litigation before the patent board concerning the ‘990 patent). See Golden
v. United States, C/A No 1:13-cv-00307-SGB (Fed. Cl.); see also Byerson v. Equifax Info.

5

59

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 6 of 8

Servs., LLC, 467 F. Supp. 2d 627, 635 (E.D. Va. 2006) (noting that “[mjost prominent
among the elements of systemic integrity are judicial economy and the avoidance of
inconsistent judgments.”). As such, the undersigned finds that dismissal of the instant
action is necessary to “prevent the waste of time, energy and money and to protect litigants,
witnesses and the public against unnecessary inconvenience and expense.” Van Dusen
v. Barrack, 376 U.S. 612, 615 (1964) (internal quotation marks and citation omitted).
RECOMMENDATION
By order issued October 1, 2019, the undersigned gave the plaintiff an
opportunity to correct the defects identified in his complaint and further warned the plaintiff
that if he failed to file an amended complaint or failed to cure the identified deficiencies, the
undersigned would recommend to the district court that the action be dismissed with
prejudice and without leave for further amendment. Upon review of the amended complaint
filed by the plaintiff, it is clear that the instant matter is duplicative of Case Number 1.
Therefore, the undersigned recommends that the district court dismiss this action without
prejudice and without issuance and service of process. However, the undersigned also
recommends that the plaintiff not be provided with additional opportunities to amend his
complaint in the instant matter—as any amendment would be futile in light of the pending
duplicative litigation. See Workman v. Morrison Healthcare, 724 F. App’x 280,281 (4th Cir.
2018) (in a case where the district court had already afforded the plaintiff an opportunity to
amend, the district court was directed on remand to “in its discretion, either afford [the
plaintiff] another opportunity to file an amended complaint or dismiss the complaint with
prejudice, thereby rendering the dismissal order a final, appealable order”) (citing Goode

6

60

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 7 of 8

i/. Cent Va. Legal Aid Soc’y, Inc., 807 F.3d 619, 630 (4th Cir. 2015)). The plaintiff’s
attention is directed to the important notice on the next page.

IT IS SO RECOMMENDED.
s/Kevin F. McDonald
United States Magistrate Judge
January 9, 2020
Greenville, South Carolina

7

61

6:19-cv-02557-DCC

Date Filed 01/09/20

Entry Number 27

Page 8 of 8

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this
Report and Recommendation with the District Judge. Objections must specifically
identify the portions of the Report and Recommendation to which objections are made
and the basis for such objections. “[I]n the absence of a timely filed objection, a district
court need not conduct a de novo review, but instead must ‘only satisfy itself that there
is no clear error on the face of the record in order to accept the recommendation.’”
Diamond v. Colonial Life &Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R.
Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the
date of service of this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ.
P. 72(b); see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil
Procedure 5 may be accomplished by mailing objections to:
Robin L. Blume, Clerk
United States District Court
300 East Washington Street, Room 239
Greenville, South Carolina 29601
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment of the
District Court based upon such Recommendation. 28 U.S.C. § 636(b)(f); Thomas v.
Am, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841 (4th Cir. 1985); United States
v. Schronce, 727 F.2d 91 (4th Cir. 1984).

8

62

